 u.s.    GOVERNMENT
 PRINTING             OFFICE                                Office of the Inspector General
 KEEPING AMERICA INFORMED                                       Report # AIO401


 12 February2004

The HonorableRobertW. Ney
Chainnan, Joint Committee on Printing
Attn: Maria Robinson, Policy Director
1309 Longworth House Office Building
Washington, DC 20515

     Re: The Printing of the Columbia Accident Investigation Board Report

Dear Mr. Chainnan:

This report respondsto the inquiry by the Joint Committee on Prin~g (JCP)
concerning the publication of the National Aeronautics and Space Administration
(NASA) Columbia Accident Investigation Board (CAIB) report. Principally, the
JCP has requesteda review to determine whether the CAIB report was subject to
the requirements of Title 44, and if so, whether the report was completed
consistent with theserequirements. The JCPrequested that the GPO Office of the
Inspector General (OIG) work with NASA's GIG to gather information
concerning the printing of the CAIB report and to determine the effect, if any, on
GPO programs.

Our investigation reveals that the CAIB was not exempted from the mandates of
Title 44. The CAIB never requested,and GPO did not grant, any waiver from
Title 44's requirement regarding the printing of any reports by the CAIB, Due to
the failure of CAIB to use GPO for the publication of the report, there were
additional costs borne to the general public as well, compromises to the
availability of the report infonnationto the general public.


I.       Back2round
The CAIB conducted a nearly seven month independent investigation into the
February 1, 2003 loss of the SpaceShuttle Columbia and its seven-membercrew.
A staff of more than 120, along with some400 NASA engineers, supported the
Board's 13 members. Accident Investigators examined more than 30,000
documents, conductedmore than 200 formal interviews, heard testimony from
dozens of expert witnesses,and reviewed more than 3,000 comments from the
general public.}

As part of its charter,the CAJB wasrequiredto "provide the public with detailed
updatesontheprogressof its investigationthrough frequentpublic hearings,press

 ColumbiaAccidentInvestigationBoardReport,Volume I, page9.

732 North Capitol Street NW    Washington, DC 20401- 0050         I nspectorG enera I@gpo.gov
Responseto Honorable Robert W. Ney                                                               2
Publication of NASA's CAIB Report
11 February 2004


briefings, and by immediately releasing all significant infonnation.. .,,2 and to
"simultaneously release its report to Congress, the White House, NASA, the
public, and the astronauts'families.,,3

One of the fIrSt actions by the CAIBwas to change its charter to ensure adequate
independence from NASA. One of the principal items of change was to
 "simultaneously release its report to the Congress,the White House, NASA, the
public, and the astronaut'sfamilies. ,,4 On February 18, 2003, NASA
Administrator SeanO'Keefe ratified the charter and authorized CAIB to 'pursue
whatever avenue [it) deem[ed) appropriate ,,5for the investigation. In so doing,
Administrator O'Keefe waived the requirements specified in the NASA
Contingency Action Plan in an attempt to provide for the greatestdegree of
independence from the agency.

In producingthe report,CAIB relied heavily on a contractorsuppliedworkforce.
In this case,Valador,Inc. wasthe principal contractorand suppliedthe majori~
oft11eworkforce for editorial andproductionservices.AValador employee,
DennisR. Jenkins,advisorto the CAIB Chairman,Admiral HaroldW. Gehman
Jr. (Retired),decidedto publishthe reportoutsideof GPO.6

The CAIB report was published on August 26,2003. Copies were sentto the
White House, Members of Congress,NASA, families of the shuttle crew and to
some members of the media.

On this samedate, the GPO first became aware of the CAIB report. The
Superintendent of Documents, Managing Director of Customer Services, and
other GPO officials were unaware of the CAIB' s intent to publish on that date.
CAIB did not request that GPO print the report or outsource the printing on behalf
of the Federal Government.

My office worked with NASA OIG and interviewed CAIB officials, NASA
officials, NASA printing officers, and CAIB contract employees involved in the
publishing/printing decision chain of command.



2Ibid at page 232.
3Ibid.
4Ibid.
5 Ibid.
6Mr. Jenkins argued, however, that he contacted someone at GPO to pursue publication but was
told that, "GPO does not do accident reports. " We found no evidence that any GPO employee
made such a statement; further, Mr. Jenkins could not provide a name or record of his contact with
GPO who allegedly made the comment. Given the customer service-focused environment at GPO
and t11ePublic Printer's edicts about customer service, we fmd Mr. Jenkins's supposed
conversation even more incredulous.



Report # AIO401                          Prepared by the GPO Office of the Inspector General
     Responseto Honorable Robert W. Ney                                                          3
     Publication of NASA's CAIB Report
.~
     11 February 2004


     II.    Was the CAIB report subject to Title 44?

     CAIB was not exempted by the GPO or granted a waiver by the JCP from the
     mandates of Title 44. Such a requestis standardoperating procedure for matters
     like the CAIB report. NASA Boards have used GPO in accordancewith the law
     for similar reports in the past.7

     A principal,reason for the mandatesof Title 44 is to ensurepublic accessto
     government documents. Because CAIB did not use GPO for the publication of the
     report, the public was disadvantaged;GPO did not have the CAIB report available
     electronically, printed for sale, or for the Federal Depository Library Program,
     which Congressestablishedto keep the public infonned of the Government's
     actions and reports.


     1lI.    Selection of Reischlin2 Press. Inc.

     CAIB selectedReischlingPress,Inc. (RPI)of Seattle,WA, to producethe report
     In a public interview,Mr. Jenkins8was askedwhat criteria CAIB usedwhen it
     selectedRPI; he statedthat:

            "Because ofsevere deadline constraints, we didn't have much time
            to lookfor qualified printers. Wetried East Coastprinters with little
            luck. RPI's 24/7 On Demand web site was credible, so we checked
            them out thoroughly. We discovered that not only has RPI perfected
            new patent-pending software enabling breakthrough laborless automatic
            press technology used to produce their new personalized iPad consumer
            products, but they enjoy an enviable national reputation for commercial
            printing quality, innovative digital press production methods, client
            responsivenessand high speedperformance.,,9

     Concerning the printer selection process, our investigators interviewed Steven
     Schmidt, Special Assistant to the NASA Administrator and NASA's
     representative to the CAIB as Executive Secretary for Management. Mr. Schmidt
     was the approving official for invoiced Valador services. Mr. Schmidt provided a


     7Reportto the President:actionsto implementthe recommendations    of the Presidential
     Commissionon the SpaceShuttleChallengerAccident.February3, 1986.
     8GPO OIG foundno personalconnectionbetweenMr. Jenkinsand the RPI Company. Mr.
     Jenkinsadnlitteda prior businessrelationshipwith RPI outsideof his governmentconsultancy.
     RPI is knownto GPOandis a registeredprinter with GPO's CustomerServicesdepartmentfor
     frocured printing.
       PRWeBwire service(August2003).




      Report # AIO401                      Prepared by the GPO Office of the Inspector General
     Responseto Honorable Robert W. Ney
                                                                                            4
.t
     Publication of NASA's CAIB Report
     11 February 2004


     copy of a Request for Proposals (RFP) for media and graphic services, issued in
     June 2003, for the production of the CAIB report. Mr. Schmidt provided this RFP
     to demonstrate Valador's due diligence in obtaining competitive pricing for the
     CAlli report, and to illustrate that Washington area printing and reproduction
     costs were excessive.

     GPO DIG analyzed the RFP with senior GPO printing/contracting officers and
     found that:
         \"
         ,.. The RFP was highly restrictive with the requirement for the contractor to
              be no more than a "IS-minute driving time from the CAIB offices in
              Arlington, VA."

         ~    The RFP also requestedpersonnel services for layout specialists, graphic
              designers, and multi-media production specialists that inflated the unit cost
              of the CAIB report.

     GPO DIG receivedno explanationwhy the CAIB's original requirementora 15-
     minute drive from their officesin Arlington, VA, waswaivedto allow a several
     hour aircraftjourney to Seattle,WA, otherthantime constraintsto publish.

     CAIB paid the Federal Aviation Administration $21,202.94 to fly CAIB
     personnel to RPI in Seattle and return with the first distribution quantities of the
     report for the White House, Congress,and the Columbia crew's families.
     Additionally, using govermnent per diem rates, GPOOIG estimates CAIB staff
     travel expensesto Seattle were approximately $3,000. The balance of the reports
     was delivered via next day airfreight.

     GPO OIG also obtained copies of Val ador invoices for RPI's work on theCAIB
     report. The total amounts invoiced for the report were $134,051. In summary,
     the direct costs of producing the report outside of GPO were:

                   ~ $134,051Printing      and Binding

                   ~. $ 21,202    Aircraft and CreW

                   ~ $ 3,000 StaffTravel

                   )0- $158,253   Total Costfor 2,600 copies or $60.87 per unit

     GPO OIG staff simulated the procurement with the assistanceof senior GPO
     printing/contracting officers using the sametime constraints of the CAlli. GPO
     OIG restricted its searchto printers in the Washington, DC, area, and found the
     following:


     Report # AIO401                     Prepared by the GPO Office of the Inspector General
    Responseto Honorable Robert W. Ney                                                                5
,   Publication of NASA's CAIB Report
    11 February 2004




    GPO would have realized an estimated savings to the taxpayer and NASA
    between $14,253.00 and $112,253.00 based on the simulated proposals. The
    GPO contractor who offered the lowest pricing is a 20-minute drive to the CAIB
    within the range of their original RFP requirement.


    III. Was the CAIB Renort in Violation of Title 44

    The relevant provisions of Title 44 are as follows:

             >- 44 USC 501: Requires that Government printing, binding, and blank-
                book work is to be completed by the GPO
             >- 44 USC 502: Requires the procurement of printing, binding, and
                blank-book work by the Public Printer
             >- 44 USC 504: Requires that direct purchase of printing, binding, and
                blank-book work be completed by Government agencies
             >- 44 USC 1103: Requires a Certificate of Necessit;yand an estimate of
                cost
             >- 44 USC 1902: Requires availability of Government publications
                through the Superintendentof Documents; lists of publications not
                ordered from GPO

    The CAIB R~ort was printed in violation of eachof the aforementioned
    provisions as noted below:

             :;.. 44 USC 501: The CAIB report was neither printed, bound, nor blank-
                  booked by the GPO
             :;.. 44 USC 502: The Public Printer through GPO, did not procure the
                  printing, binding, and blank-book work
             :;.. 44 USC 504: The JCP did not authorize CAIB to direct purchase
                  printing, binding, or blank-book work



    10GPO contracting officers opined that a better price would have been achieved but for the fact
    that the contractors were aware that this was a simulated procurement.
    11Normal intake is usually 10 business days.




    Report # AIO401                          Prepared by the GPO Office of the Inspector General
      Responseto Honorable Robert W. Ney                                                            6
...   Publication of NASA's CAIB Report
      11 February 2004


               > 44 USC 1103: A Certificate of Necessity and estimate of cost were not
                   provided.
               > 44 USC 1902: The completion of the CAIB report did not provide for
                 the availability of the publication through the Superintendentof
                 Documents and therefore the documentwas not made available for
                 public request from the GPO


      IV. Conclusion

      Due to the failure to comply with provisions of Title 44, taxpayer and NASA
      funds were spent illegally and at much higher costs than if the legal and
      appropriate printing procurement procedureshad beenfollowed. Additionally,
      the violations of these laws causedthe Superintendentof Documents to delay
      dissemination of the publication for sale and to the depository libraries for public
      use.12While proper print managementplanning would have saved over $100,000;
      however, an equally important policy issue concerns the delayed dissemination of
      a report of this magnitude.

      It is worth noting that GPO OIG received excellent cooperation at all levels of
      NASA management,and the NASA OIG provided valuable assistancein
      facilitating GPO OIG work. Similarly, CAIB employeesand contract personnel
      were cooperative and forthcoming to all requests for assistance.

      Should you require any additional information concerning this matter, please do
      not hesitate to contact Kevin Kaporch at 202-512-0065 or Special Agent David
      Kennedy at 202-512-0027.




      MAN/gj



      12According to Judith C. Russell, Superintendent of Documents, the delay of "several weeks"
      caused GPO "to look bad to our [Federal Depository] Libraries and our customerstbrough no fault
      of our own."




      Report # AIO401                         Prepared by the GPO Office of the Inspector General
